Brian Halligan Fletcher
Counsel of Record
Stanford Law School Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305
bfletcher@law.stanford.edu
650-724-3345
Party name: Arthur Gregory Lange
Attorneys for Respondent
Samuel Thomas Harbourt
Counsel of Record
California Department of Justice
Office of the Solicitor General
455 Golden Gate Ave.
Suite 11000
San Francisco, CA 94102
415-510-3919
Samuel.Harbourt@doj.ca.gov
Amanda Kelly Rice
Counsel of Record
Jones Day
150 W. Jefferson Ave., Suite 2100
Detroit, MI 48226
arice@jonesday.com
313-230-7926
Party name: Court-appointed amicus curiae in support of the judgment below

